No. 20-948

In the Supreme Court of the
United States
______________
KOBE,
Petitioner,
V.

BEVERLY BUSCEMI, EMMA FORKNER, KATHI LACY, THOMAS WARING,
JACOB CHOREY AND JUDY JOHNSON
Respondents.
______________
Certificate of Service
______________
I Kenneth P. Woodington, a member of the Bar of this Court, certify that:
I am Counsel of Record for Respondents.
That on the 18th day of March 2021, I served the within Brief In Opposition in the abovecaptioned matter upon counsel for Petitioner:

Patricia Logan Harrison
47 Rosemond Road
Cleveland, South Carolina 29635
by depositing one copy of same, addressed to each individual respectively, and enclosed in a
post-paid, properly addresses wrapper, in an official depository maintained by the United States
Postal Service, via Priority Mail. An electronic version was also served by e-mail to each
individual.
That on the same date as above, I sent to this Court one unbound copy of the within Brief
In Opposition through the United States Postal Service by Priority Mail, postage prepaid.
And that on the same date as above, I served the within Brief In Opposition in the abovecaptioned matter upon counsel for the other Respondents:

Damon C. Wlodarczyk
RILEY POPE & LANEY, LLC
Post Office Box 11412
Columbia, SC 29211
damonw@rplfirm.com
and
CHRISTIAN STEGMAIER
KELSEY J. BRUDVIG
COLLINS & LACY, P.C.
Post Office Box 12487
Columbia, SC 29211
cstegmaier@collinsandlacy.com
kbrudvig@collinsandlacy.com

by depositing one copy of same, addressed to each individual respectively, and enclosed in a
post-paid, properly addresses wrapper, in an official depository maintained by the United States
Postal Service, via first class mail. An electronic version was also served by e-mail to each
individual.
In addition, the brief has been submitted electronically through the Court’s electronic filing
system. All parties required to be served have been served.

s/ Kenneth P. Woodngton
Kenneth P. Woodington

